I

4

'\
\ \

\

■c.

S.D.N.Y.-N.Y.C.
19-cv-6332
McMahon, C.J.

I
United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 8th day of May, two thousand twenty.
Present:
Pierre N. Leval,
Raymond J. Lohier, Jr
Michael H. Park,
Circuit Judges.
Wilfredo Torres,
Plaintiff-Appellant,
19-3878

v.
City of New York, et al..
Defendants-Appellees,
District Attorney Cyrus Vance, et al.,
Defendants.

Appellant, pro se, moves to recall the mandate. Upon due consideration, it is hereby ORDERED
that the motion is DENIED. See Sargent v. Columbia Forest Prods., Inc., 75 F.3d 86, 89 (2d Cir.
1996). This Court has determined sua sponte that it lacks jurisdiction over this appeal because a
final order has not been issued by the district court as contemplated by 28 U.S.C. § 1291. See
Petrello v. White, 533 F.3d 110, 113 (2d Cir. 2008); SongByrd, Inc. v. Estate of Grossman, 206
F.3d 172, 176-77 (2d Cir. 2000).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 1 of 15

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
WILFREDO TORRES,
Plaintiff,
-againstCITY OF NEW YORK; CYRUS VANCE; THE
LEGAL AID SOCIETY; NEW YORK CITY
HEALTH & HOSPITALS; THE BLACKSTONE
GROUP; CENTRAL INTELLIGENCE
AGENCY; U.S. DEPARTMENT OF JUSTICE,

19-CV-6332 (CM)
ORDER TO AMEND

Defendants.
COLLEEN McMAHON, Chief United States District Judge:
Plaintiff, appearing pro se, brings this action under the Court’s federal-question
jurisdiction. By order dated August 21, 2019, the Court granted Plaintiffs request to proceed
without prepayment of fees, that is, in forma pauperis. For the reasons discussed below, the
Court grants Plaintiff leave to file an amended complaint.
STANDARD OF REVIEW
The Court must dismiss an in forma pauperis complaint, or portion thereof, that is
frivolous or malicious, fails to state a claim on which relief may be granted, or seeks monetary
relief from a defendant who is immune from such relief. 28 U.S.C. § 1915(e)(2)(B); see
Livingston v. Adirondack Beverage Co., 141 F.3d 434, 437 (2d Cir. 1998). The Court must also
dismiss a complaint, or portion thereof, when the Court lacks subject matter jurisdiction. See
Fed. R. Civ. P. 12(h)(3). While the law mandates dismissal on any of these grounds, the Court is
obliged to construe pro se pleadings liberally, Harris v. Mills, 572 F.3d 66, 72 (2d Cir. 2009),
and interpret them to raise the “strongest [claims] that they suggest,” Triestman v. Fed. Bureau of

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 2 of 15

Prisons, 470 F.3d 471,474 (2d Cir. 2006) (internal quotation marks and citations omitted,
emphasis in original).
A claim is frivolous when it “lacks an arguable basis either in law or in fact.” Neitzke v.
Williams, 490 U.S. 319, 325 (1989), abrogated on other grounds by Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007); see also Denton v. Hernandez, 504 U.S. 25, 33 (1992) (holding that “a
finding of factual frivolousness is appropriate when the facts alleged rise to the level of the
irrational or the wholly incredible”); Livingston, 141 F.3d at 437 (2d Cir. 1998) (“[A]n action is
‘frivolous’ when either: (1) the factual contentions are clearly baseless ...; or (2) the claim is
based on an indisputably meritless legal theory.”) (internal quotation marks and citation omitted).

BACKGROUND
A.

Torres v. City ofNew York, l:16-CV-2362 (“Torres /”)
On March 29, 2016, Plaintiff filed Torres I, a pro se action in which he initially named

the New York City Police Department (“NYPD”), the New York City Department of Buildings
(“DOB”), and Bellevue South Associates (“BSA”) (his landlord) as defendants. Torres I is
pending before Judge Abrams. In the latest complaint that he filed in Torres I, Plaintiff sues BSA,
the City of New York, New York City police officers, a DOB employee, New York City Fire
Lieutenants and a Firefighter, the New York City Hospital for Joint Diseases (“HJD”), a
physician, and Bellevue Hospital. (ECF l:16-CV-2362, 291.)
Plaintiffs claims in Torres / arise from the following alleged events: (1) since 2008,
Plaintiff has been injured when breathing in the gases and other pollutants emanating from a
pizza oven and chimney in a restaurant in a BSA-owned building next to Plaintiffs apartment
building, (2) DOB has responded inadequately to Plaintiffs complaints about the oven and
chimney, (3) on September 28, 2015, NYPD officers broke down Plaintiffs apartment door with
the assistance of a BSA employee and handcuffed Plaintiff, (4) on April 28, 2016, members of
2

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 3 of 15

the New York City Fire Department (“FDNY”), acting on a report by an HJD physician, broke
down Plaintiffs apartment door; NYPD officers then arrived and handcuffed Plaintiff and took
him to Bellevue, where Bellevue staff restrained and medicated him without his consent.
B.

Torres v. NYC Police Dep’t, l:16-CV-3437 (“Torres IF)
On May 9, 2016, Plaintiff filed another pro se action, Torres II, in which he sues the

NYPD and BSA. (ECF 1:16-CV-3437, 2.) Torres II is also pending; Judge Abrams has accepted
Torres II as related to Torres I. Plaintiffs claims in Torres II also arise from the September 28,
2015 and April 28, 2016 events alleged in Torres I.
C.

Torres v. NYC Health & Hospitals, l:18-CV-4665 (“Torres IIF)
On May 25, 2018, Plaintiff filed yet another pro se action, Torres III, in which he sues

NYC Health + Hospitals (formerly known as the New York City Health and Hospitals
Corporation) (“HHC”) and members of the Bellevue staff. (ECF 1:18-CV-4665, 2.) Torres III,
like Torres I and Torres II, is pending before Judge Abrams, as she has also accepted it as related
to Torres I. Plaintiffs claims in Torres III arise from the same events alleged in Torres I and
Torres II.
D.

Torres v. The Blackstone Grp., l:18-CV-6434 (“Torres IV”)
On July 16, 2018, Plaintiff filed still another pro se action, Torres IV, in which he sued

the Blackstone Group. Plaintiff alleged in his Torres IVamended complaint that BSA sold
Plaintiffs apartment building to the Blackstone Group in December 2016. (ECF l:18-CV-6434,
7, p. 8-9.) In his Torres IV amended complaint, Plaintiff asserted claims arising from the same
events alleged in Torres I, Torres II, and Torres III. Judge Abrams accepted Torres IV as related
to Torres I. And in a Memorandum and Order dated September 3, 2019, Judge Abrams granted
the Blackstone Group’s motion to dismiss Torres IVfor failure to state a claim on which relief
may be granted but declined to consider any of Plaintiff s state-law claim under the Court’s

3

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 4 of 15

supplemental jurisdiction. Torres IV, No. 18-CV-6434, 2019 WL 4194496 (S.D.N.Y. Sept. 3,
2019) (notice of appeal filed Oct. 3, 2019).
E.

The present action
In the present action, Plaintiff sues the City of New York, New York County District

Attorney Cyrus Vance, Jr., the Legal Aid Society, HHC, the Blackstone Group, the Central
Intelligence Agency (“CIA”), and the United States Department of Justice (“DOJ”). The present
complaint’s statement of claim begins by stating that:
The government of the United States finally accepts the destruction of New York
City’s World Trade Center on September 11, 2001 was an inside job of controlled
demolition, part of the New World Order’s agenda to create a fake “war on
terror”; multiply the military and national security budgets; trash the U.S.
Constitution; activate the totalitarian Patriot Act-Foreign Intelligence Surveillance
Act (FISA); a secret and omnipotent Court called Foreign Intelligence
Surveillance Court (FISC); militarize all police agencies to condition and
slaughter civilians; expand the federal hit-list of over 3-million individuals
targeted for persecution or death; and take total control of the news-media.
(ECF 2, p. 8.) The present complaint then recounts the same events of September 28, 2015, and
April 28, 2016, that underlie Torres /, Torres II, Torres III, and Torres IV. i
Plaintiff alleges the following additional facts in the present complaint: In Torres /, he
requested that Judge Abrams allow him to additionally name the Federal Bureau of Investigation
(“FBI”) and DOJ as defendants. (Id. p. 11); (see also Torres /, ECF 1:16-CV-2362, 316, p. 3)
(letter from Plaintiff to Judge Abrams requesting to add FBI and DOJ as defendants in
Torres I).2 The day after he filed that request, “the CLA-FBI-NYPD Unit fabricated against [him]

i

Plaintiff refers to those who entered his apartment on September 28, 2015, and on April
28, 2016, as employed by the “Central Intelligence Agency-Federal Bureau of Investigation-New
York City Police Department Unit (‘CIA-FBI-NYPD Unit’).” (ECF 2, p. 8.)
2 It does not appear that Judge Abrams has issued a decision on that request.
4

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 5 of 15

a Family Court complaint for aggravated harassment” that the Family Court dismissed. (ECF 2,
p. 11.)
On December 13, 2018, “the CIA-FBI-NYPD Unit[] and Elijah Smalls,” a BSA
employee and Torres I defendant, “were tumed[]down to enter [Plaintiffs] apartment, used a
sledge hammer trying to break the door, and made threats such as: “YOU PAID FOR THE
DOOR, AND WILL HAVE TO PAY AGAIN.” (ECF 2, p. 12 (emphasis in original).)
Plaintiffs attorney then informed him that a “related criminal case” had been brought
against him; he surrendered to the police on December 21, 2018, but he “was released by a
Judge.” (Id.) On that same date, “the CIA-FBI-NYPD Unit” “signed and fabricated” a criminal
complaint against him. (Id.) A court-appointed criminal defense attorney from the Legal Aid
Society advised him to plead guilty because ‘“it’s only a misdemeanor, and the Judge will not
give you jail time.”’ (Id. p. 12-13.) Plaintiff made unspecified complaints to his criminal defense
attorney’s supervisors and the President of the Legal Aid Society, but his complaints were
ignored. That criminal case against him was dismissed.
On February 20, 2019, “the CIA-FBI-NYPD Unit” returned to Plaintiffs apartment.
When he denied them access, they threatened him by saying, ‘“IF YOU DON’T OPEN THE
DOOR WE WILL TELL YOUR NEIGHBORS THAT YOU ARE A RAPIST AND A
PEDOPHILE.’” (Id. p. 13 (emphasis in original).) Two days later, Plaintiff, a woman who
accused Plaintiff of a crime, the District Attorney, and a lawyer from the Legal Aid Society met
at Plaintiffs apartment so that the woman could pick up her belongings. They agreed that the
police would not be there. But Plaintiffs Legal Aid Society lawyer and the District Attorney “set
a trap to allow the CIA-FBI-NYPD Unit to search [Plaintiffs] apartment; five (5) of them
invaded [his] apartment when the woman walked in; conducted another warrantless raid; [and]

5

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 6 of 15

arrested [him] on a bogus charge of violating an Order of Protection.” {Id. p. 14.) They also
removed property. And two members of the unit shackled Plaintiff and took him to Bellevue so
that he could undergo an involuntary psychiatric examination while the other members of the
unit continued to search his apartment. On that same date, members of the unit filed a false
criminal complaint against Plaintiff, but the underlying criminal case was dismissed. Plaintiffs
Legal Aid Society attorney and his supervisors “acted with indifference.” {Id. p. 14.)
Plaintiff asserts that the defendants have violated his rights under the United States and
New York State Constitutions. He seeks $30,000,000 in damages.
DISCUSSION
A.

Claims about the events of September 11, 2001
The Court must dismiss Plaintiffs claims about the events of September 11, 2001 as

frivolous. Even when read with the “special solicitude” due pro se pleadings, Triestman, 470
F.3d at 474-75, Plaintiffs claims about those events rise to the level of the irrational, and there is
no legal theory on which he can rely. See Denton, 504 U.S. at 33; Livingston, 141 F.3d at 437.
The Court therefore dismisses Plaintiffs claims about those events as frivolous. 28 U.S.C.
§ 1915(e)(2)(B)(i).
B.

Claims about the events of September 28, 2015, and April 28,2016
The Court must also dismiss Plaintiffs claims about the events of September 28, 2015,

and April 28, 2016. “As part of its general power to administer its docket, a district court may
stay or dismiss a suit that is duplicative of another federal court suit.” Curtis v. Citibank, N.A.,
226 F.3d 133, 138 (2d Cir. 2000). “This is because a plaintiff has ‘no right to maintain two
actions on the same subject in the same court, against the same defendant at the same time.”’
Sacerdote v. Cammack Larhette Advisors, LLC, 939 F.3d 498, 504 (2d Cir. 2019) (quoting
Curtis, 226 F.3d at 139). For this rule against duplicative litigation to be invoked, “the case must

6

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 7 of 15

be the same.” Id. (quoting United States v. The Haytian Rep., 154 U.S. 118, 124 (1894)) (internal
quotation marks omitted). “[T]here must be the same parties, or, at least, such as represent the
same interests; there must be the same rights asserted and the same relief prayed for; the relief
must be founded upon the same facts, and the title, or essential basis, of the relief sought must be
the same.” Id. (quoting The Haytian Rep., 154 U.S. at 124) (internal quotation marks omitted).
Plaintiff asserts in this action many of the same claims that arise from the events of
September 28, 2015, and April 28, 2016, that he has asserted in Torres I, Torres II, and
Torres III against the same defendants named in those actions or against individuals and entities
that are in privity with those defendants. He filed the present action after he filed Torres I,
Torres II, and Torres III, but those actions are still pending. Accordingly, since no useful
purpose would be served by litigating claims in this action arising from the events of September
28, 2015, and April 28, 2016, that Plaintiff has been litigating in Torres I, Torres II, and
Torres III, the Court dismisses those claims without prejudice to Plaintiffs claims in Torres I,
Torres III, and Torres III.
C.

Sovereign immunity
The doctrine of sovereign immunity bars federal courts from hearing all suits against the

United States of America and federal agencies, such as CIA and DOJ, except where sovereign
immunity has been waived. United States v. Mitchell, 445 U.S. 535, 538 (1980) (quoting United
States v. Sherwood, 312 U.S. 584, 586 (1941)); Robinson v. Overseas Military Sales Corp., 21
F.3d 502, 510 (2d Cir. 1994) (“Because an action against a federal agency ... is essentially a suit
against the United States, such suits are ... barred under the doctrine of sovereign immunity,
unless such immunity is waived.”). The Federal Tort Claims Act (“FTCA”), 28 U.S.C.
§§ 1346(b), 2671-80, provides for a waiver of sovereign immunity for certain claims for
damages arising from the tortious conduct of federal government officers or employees acting
7

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 8 of 15

within the scope of their office or employment. See 28 U.S.C. § 1346(b)(1). But a plaintiff must
comply with the FTCA’s procedural requirements before a federal court can entertain his claim.
See Johnson v. Smithsonian Inst., 189 F.3d 180, 189 (2d Cir. 1999), abrogated on other grounds,
United States v. Kwai Fun Wong, 135 S. Ct. 1625 (2015).
Before bringing a claim in a federal district court under the FTCA, a claimant must first
exhaust his administrative remedies by filing a claim for damages with the appropriate federal
government entity and must receive a final written determination. See 28 U.S.C. § 2675(a). If no
final written determination is made by the appropriate federal government entity within six
months of the date of the claimant’s filing, the claimant may bring an FTCA action in a federal
district court. See id. This requirement is jurisdictional and cannot be waived. See Celestine v.
Mount Vernon Neighborhood Health Ctr., 403 F.3d 76, 82 (2d Cir. 2005).
Here, Plaintiff does not allege any facts demonstrating that he has filed an administrative
claim under the FTCA with a federal government entity for damages. Nor does he allege that he
has subsequently received a final written determination before bringing this action, or that it has
been more than six months since he has filed such an administrative claim. Accordingly, the
Court dismisses Plaintiffs claims against DOJ and CIA as frivolous under the doctrine of
sovereign immunity. See § 1915(e)(2)(B)(i), (iii); Montero v. Travis, 171 F.3d 757, 760 (2d Cir.
1999) (“A complaint will be dismissed as ‘frivolous’ when ‘it is clear that the defendants are
immune from suit.’” (quoting Neitzke v. Williams, 490 U.S. 319, 327 (1989))).
D.

Cyrus Vance, Jr.
The Court construes Plaintiff’s complaint as asserting claims of federal constitutional

violations under 42 U.S.C. § 1983 against New York County District Attorney Cyrus Vance, Jr.,
arising from his prosecution of Plaintiff following Plaintiffs arrests. But the Court must those
claims. Prosecutors are immune from civil suits for damages in their individual capacities for
8

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 9 of 15

acts committed within the scope of their official duties where the challenged activities are not
investigative in nature but, rather, are “intimately associated with the judicial phase of the
criminal process.” Simon v. City ofNew York, 727 F.3d 167, 171 (2d Cir. 2013) (quoting Imbler v.
Pachtman, 424 U.S. 409, 430 (1976)) (internal quotation marks omitted); see also Buckley v.
Fitzsimmons, 509 U.S. 259, 269 (1993) (absolute immunity is analyzed under a “functional
approach” that “looks to the nature of the function performed, not the identity of the actor who
performed it”) (internal quotation marks and citation omitted). In addition, prosecutors are
immune from suit for acts that may be administrative obligations but are “directly connected
with the conduct of a trial.” Van de Kamp v. Goldstein, 555 U.S. 335, 344 (2009).
Plaintiffs § 1983 claims against Vance arise from Vance’s prosecution of Plaintiff. The
Court therefore dismisses Plaintiffs § 1983 claims against Vance under the doctrine of
prosecutorial immunity and because such claims are frivolous. See § 1915(e)(2)(B)(i), (iii);
Collazo v. Pagano, 656 F.3d 131, 134 (2d Cir. 2011) (claims dismissed for prosecutorial
immunity are frivolous under the in forma pauperis statute); Montero, 171 F.3d at 760.
E.

The Legal Aid Society & the Blackstone Group
The Court also construes Plaintiffs complaint as asserting § 1983 claims against the

Legal Aid Society and the Blackstone Group. But the Court must dismiss those claims as well. A
claim for relief under § 1983 must allege facts showing that each defendant acted under the color
of a state “statute, ordinance, regulation, custom or usage.” Private parties are therefore not
generally liable under the statute. Sykes v. Bank ofAm., 723 F.3d 399, 406 (2d Cir. 2013)
(quoting Brentwood A cad. v. Tenn. Secondary Sch. Athletic Ass ’n, 531 U.S. 288, 295 (2001)); see
also Ciambriello v. Cnty. ofNassau, 292 F.3d 307, 323 (2d Cir. 2002) (“[T]he United States
Constitution regulates only the Government, not private parties ... .”) (internal quotation marks
and citation omitted).
9

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 10 of 15

Absent special circumstances suggesting concerted action between a private legal aid
organization and a state representative, seeAdickes v. S.H. Kress & Co., 398 U.S. 144, 152
(1970), the actions of such an organization do not constitute the degree of state involvement
sufficient to state a claim against it under § 1983. Schnabel v. Abramson, 232 F.3d 83, 87 (2d Cir.
2000).
The Legal Aid Society and the Blackstone Group are private organizations. And Plaintiff
has failed to allege any facts suggesting that either of those entities acted as a state actor. The
Court therefore dismisses Plaintiffs § 1983 claims against the Legal Aid Society and the
Blackstone Group for failure to state a claim on which relief may be granted.3 See
§ 1915(e)(2)(B)(ii).
F.

The City of New York & HHC
The Court further construes Plaintiffs complaint as asserting § 1983 claims against the

City of New York and HHC. When asserting such claims against the City of New York or HHC,
is not enough for a plaintiff to allege that one of the City’s or HHC’s employees or agents
engaged in some wrongdoing. A plaintiff must show that the municipality or HHC itself caused
the violation of the plaintiffs rights. See Connick v. Thompson, 563 U.S. 51, 60 (2011) (“A
municipality or other local government may be liable under this section [1983] if the
governmental body itself ‘subjects’ a person to a deprivation of rights or ‘causes’ a person ‘to be
subjected’ to such deprivation.” (quoting Monell v. Dep’t ofSoc. Servs. of City ofNew York, 436

3 Plaintiff seems to allege that his Legal Aid Society attorney conspired with District
Attorney Vance when they “set a trap to allow the CLA-FBI-NYPD Unit to search [his]
apartment.” (ECF 2, p. 13.) But because these allegations are vague and without supporting facts,
they fail to state a claim of conspiracy under either § 1983 or 42 U.S.C. § 1983(5). See
§ 1915(e)(2)(B)(ii); Wang v. Miller, 356 F. App’ x 516, 517 (2d Cir. 2009) (summary order);
Webb v. Goord, 340 F.3d 105, 110-11 (2d Cir. 2003); Ciambrello, 292 F.3d at 324-25; Boddie v.
Schnieder, 105 F.3d 857, 862 (2d Cir. 1997); Polur v. Raffe, 912 F.2d 52, 56 (2d Cir. 1990).

10

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 11 of 15

U.S. 658, 692 (1978))); Cash v. Cnty. of Erie, 654 F.3d 324, 333 (2d Cir. 2011). In other words,
to state a § 1983 claim against a municipality or HHC, the plaintiff must allege facts showing
(1) the existence of a municipal or HHC policy, custom, or practice, and (2) that the policy,
custom, or practice caused the violation of the plaintiff’s constitutional rights. Jones v. Town of
East Haven, 691 F.3d 72, 80 (2d Cir. 2012); see Bd. of Cnty. Comm ’rs ofBryan Cnty. v. Brown,
520 U.S. 397, 403 (1997) (internal citations omitted); Rookard v. Health & Hosp. Corp., 710
F.2d 41, 45 (2d Cir. 1983) (applying standard for § 1983 municipal liability to HHC).
Plaintiffs remaining claims against the City of New York and HHC appear to arise from
the alleged actions of the City’s and HHC’s employees in December 2018 and February 2019. In
light of Plaintiff s pro se status, the Court grants Plaintiff leave to file an amended complaint in
which he alleges facts that suggest that a policy, custom, or practice of the City of New York or
HHC caused a violation of his federal constitutional rights and that such a violation arose from
events that occurred in December 2018 or February 2019.
G.

Personal involvement of individuals
To state a claim under § 1983, a plaintiff must allege facts showing an individual’s direct

and personal involvement in the alleged constitutional deprivation. See Spavone v. N. Y. State
Dep’t of Corr. Serv., 719 F.3d 127, 135 (2d Cir. 2013) (citing Colon v. Coughlin, 58 F.3d 865,
873 (2d Cir. 1995)). A defendant may not be held liable under § 1983 solely because that
defendant employs or supervises a person who violated the plaintiffs rights. See Ashcroft v.
Iqbal, 556 U.S. 662, 676 (2009) (“Government officials may not be held liable for the
unconstitutional conduct of their subordinates under a theory of respondeat superior.”). An
individual can be personally involved in a § 1983 violation if:
(1) the defendant participated directly in the alleged constitutional violation,
(2) the defendant, after being informed of the violation through a report or appeal,
failed to remedy the wrong, (3) the defendant created a policy or custom under
11

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 12 of 15

which unconstitutional practices occurred, or allowed the continuance of such a
policy or custom, (4) the defendant was grossly negligent in supervising
subordinates who committed the wrongful acts, or (5) the defendant exhibited
deliberate indifference to the rights of [the plaintiff] by failing to act on
information indicating that unconstitutional acts were occurring.
Colon, 58 F.3d at 873.4
Other than Vance, Plaintiff has not named any individuals as defendants who were
involved in the alleged events of December 2018 or February 2019. The Court therefore grants
Plaintiff leave to amend his complaint to assert § 1983 claims against those individuals. He must
name those individuals as defendants and allege facts showing how those individuals were
personally involved in violations of his constitutional rights in December 2018 or February 2019.
LEAVE TO AMEND
The Court grants Plaintiff leave to file amended complaint about his § 1983 claims that
arise from the alleged events of December 2018 or February 2019, and that are against the City
of New York, HHC, and any individuals. First, Plaintiff must name among the defendants in the
caption5 and in the statement of claim those individuals who were allegedly involved in the
deprivation of his federal rights. If Plaintiff does not know the name of a defendant, he may refer
to that individual as “John Doe” or “Jane Doe” in both the caption and the body of the amended

4«

Although the Supreme Court’s decision in [Iqbal, 556 U.S. 662] may have heightened
the requirements for showing a supervisor’s personal involvement with respect to certain
constitutional violations,” the Second Circuit has not yet examined that issue. Grullon v. City of
New Haven, 720 F.3d 133, 139 (2d Cir. 2013).
5 The caption is located on the front page of the complaint. Each individual defendant
must be named in the caption. Plaintiff may attach additional pages if there is not enough space
to list all of the defendants in the caption. If Plaintiff needs to attach an additional page to list all
defendants, he should write “see attached list” on the first page of the amended complaint. Any
defendants named in the caption must also be discussed in Plaintiffs statement of claim.

12

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 13 of 15

complaint.6 The naming of “John Doe” or “Jane Doe” defendants, however, does not toll the
three-year statute of limitations period governing Plaintiffs § 1983 claims and Plaintiff shall be
responsible for ascertaining the true identity of any “John Doe” or “Jane Doe” defendants and
amending his complaint to include the identity of any “John Doe” or “Jane Doe” defendants
before the statute of limitations period expires. Should Plaintiff seek to add a new claim or party
after the statute of limitations period has expired, he must meet the requirements of Rule 15(c) of
the Federal Rules of Civil Procedure.
In the statement of claim, Plaintiff must provide a short and plain statement of the
relevant facts supporting each claim against each defendant named in the amended complaint.
Plaintiff is also directed to provide the addresses for any named defendants. To the greatest
extent possible, Plaintiffs amended complaint must:
a) give the names and titles of all relevant persons;
b) describe all relevant events, stating the facts that support Plaintiffs case, including
what each defendant did or failed to do;
c) give the dates and times of each relevant event or, if not known, the approximate date
and time of each relevant event;
d) give the location where each relevant event occurred;
e) describe how each defendant’s acts or omissions violated Plaintiffs rights and
describe the injuries Plaintiff suffered; and
f) state what relief Plaintiff seeks from the Court, such as money damages, injunctive
relief, or declaratory relief.
Essentially, the body of Plaintiff s amended complaint must tell the Court: who violated
his federally protected rights; what facts show that his federally protected rights were violated;

6 For example, a defendant may be identified as: “Correction Officer John Doe #1 on
duty on August 31, 2018, in the Sullivan Correctional Facility clinic, during the 7 a.m. to 3 p.m.
shift.”

13

Case l:19-cv-06332-ER Document? Filed 11/13/19 Page 14 of 15

when such violation occurred; where such violation occurred; and why Plaintiff is entitled to
relief. Because Plaintiffs amended complaint will completely replace, not supplement, the
original complaint, any facts or claims that Plaintiff wishes to maintain must be included in the
amended complaint. Plaintiff must not reassert, in his amended complaint, claims that the Court
has dismissed in this order.
CONCLUSION
The Court directs the Clerk of Court to assign this matter to my docket, mail a copy of
this order to Plaintiff, and note service on the docket.
The Court dismisses Plaintiffs claims except for those against the City of New York and
NYC Health + Hospitals.
The Court grants Plaintiff leave to file an amended complaint that complies with the
standards set forth above. Plaintiff must submit the amended complaint to this Court’s Pro Se
Intake Unit within sixty days of the date of this order, caption the document as an “Amended
Complaint,” and label the document with docket number 19-CV-6332 (CM). An amended
complaint form is attached to this order. No summons will issue at this time. If Plaintiff fails to
comply within the time allowed, and he cannot show good cause to excuse such failure, the
Court will dismiss Plaintiffs remaining claims for failure to state a claim upon which relief may
be granted. See 28 U.S.C. § 1915(e)(2)(B)(ii).
The Court certifies under 28 U.S.C. § 1915(a)(3) that any appeal from this order would
not be taken in good faith, and therefore in forma pauperis status is denied for the purpose of an
appeal. Cf Coppedge v. United States, 369 U.S. 438, 444-45 (1962) (holding that an appellant
demonstrates good faith when he seeks review of a nonfrivolous issue).

14

Case l:19-cv-06332-ER Document 7 Filed 11/13/19 Page 15 of 15

The Court also directs the Clerk of Court to docket this order as a “written opinion”
within the meaning of Section 205(a)(5) of the E-Govemment Act of 2002.
SO ORDERED.
Dated:

November 13, 2019
New York, New York
COLLEEN McMAHON
Chief United States District Judge

15

Case l:19-cv-06332-ER Document 7-1 Filed 11/13/19 Page 1 of 7

United States District Court
Southern District of New York

cv
(Include case number if one has been
assigned)

Write the full name of each plaintiff.

AMENDED

-against-

COMPLAINT
Do you want a jury trial?
□ Yes □ No

Write the full name of each defendant. If you need more
space, please write "see attached" in the space above and
attach an additional sheet of paper with the full list of
names. The names listed above must be identical to those
contained in Section II.

NOTICE
The public can access electronic court files. For privacy and security reasons, papers filed
with the court should therefore not contain: an individual's full social security number or full
birth date; the full name of a person known to be a minor; or a complete financial account
number. A filing may include only: the last four digits of a social security number; the year of
an individual's birth; a minor's initials; and the last four digits of a financial account number.
See Federal Rule of Civil Procedure 5.2.

Rev. 2/10/17

Case l:19-cv-06332-ER

I.

Document 7-1

Filed 11/13/19

Page 2 of 7

BASIS FOR JURISDICTION

Federal courts are courts of limited jurisdiction (limited power). Generally, only two types of
cases can be heard in federal court: cases involving a federal question and cases involving
diversity of citizenship of the parties. Under 28 U.S.C. § 1331, a case arising under the United
States Constitution or federal laws or treaties is a federal question case. Under 28 U.S.C. § 1332,
a case in which a citizen of one State sues a citizen of another State or nation, and the amount
in controversy is more than $75,000, is a diversity case. In a diversity case, no defendant may
be a citizen of the same State as any plaintiff.
What is the basis for federal-court jurisdiction in your case?

□ Federal Question
□ Diversity of Citizenship
A. If you checked Federal Question
Which of your federal constitutional or federal statutory rights have been violated?

B. If you checked Diversity of Citizenship
1. Citizenship of the parties
Of what State is each party a citizen?

The plaintiff,

, is a citizen of the State of
(Plaintiff's name)

(State in which the person resides and intends to remain.)

or, if not lawfully admitted for permanent residence in the United States, a citizen or
subject of the foreign state of

If more than one plaintiff is named in the complaint, attach additional pages providing
information for each additional plaintiff.

Page 2

Case l:19-cv-06332-ER

Document 7-1

Filed 11/13/19

Page 3 of 7

If the defendant is an individual:

The defendant,

, is a citizen of the State of
(Defendant's name)

or, if not lawfully admitted for permanent residence in the United States, a citizen or
subject of the foreign state of

If the defendant is a corporation:

The defendant,

, is incorporated under the laws of

the State of
and has its principal place of business in the State of
or is incorporated under the laws of (foreign state)
and has its principal place of business in ___________________________________
If more than one defendant is named in the complaint, attach additional pages providing
information for each additional defendant.

II. PARTIES
A. Plaintiff Information
Provide the following information for each plaintiff named in the complaint. Attach additional
pages if needed.

First Name

Middle Initial

Last Name

Street Address

County, City

State

Telephone Number

Email Address (if available)

Zip Code

Page 3

Case l:19-cv-06332-ER

Document 7-1

Filed 11/13/19

Page 4 of 7

B. Defendant Information
To the best of your ability, provide addresses where each defendant may be served. If the
correct information is not provided, it could delay or prevent service of the complaint on the
defendant. Make sure that the defendants listed below are the same as those listed in the
caption. Attach additional pages if needed.

Defendant 1:
First Name

Last Name

Current Job Title (or other identifying information)
Current Work Address (or other address where defendant may be served)
County, City

State

Zip Code

Defendant 2:
First Name

Last Name

Current Job Title (or other identifying information)
Current Work Address (or other address where defendant may be served)
County, City

State

Zip Code

Defendant 3:
First Name

Last Name

Current Job Title (or other identifying information)
Current Work Address (or other address where defendant may be served)
County, City

State

Zip Code

Page 4

Case l:19-cv-06332-ER

Document 7-1

Filed 11/13/19

Page 5 of 7

Defendant 4:
First Name

Last Name

Current Job Title (or other identifying information)
Current Work Address (or other address where defendant may be served)
County, City

State

Zip Code

III. STATEMENT OF CLAIM
Place(s) of occurrence:

Date(s) of occurrence:
FACTS:
State here briefly the FACTS that support your case. Describe what happened, how you were
harmed, and what each defendant personally did or failed to do that harmed you. Attach
additional pages if needed.

Page 5

Case l:19-cv-06332-ER Document 7-1 Filed 11/13/19 Page 6 of 7

INJURIES:
If you were injured as a result of these actions, describe your injuries and what medical
treatment, if any, you required and received.

IV. RELIEF
State briefly what money damages or other relief you want the court to order.

Page 6

Case l:19-cv-06332-ER Document 7-1 Filed 11/13/19 Page 7 of 7

V. PLAINTIFF'S CERTIFICATION AND WARNINGS
By signing below, I certify to the best of my knowledge, information, and belief that: (1) the
complaint is not being presented for an improper purpose (such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation); (2) the claims are supported
by existing law or by a nonfrivolous argument to change existing law; (3) the factual
contentions have evidentiary support or, if specifically so identified, will likely have
evidentiary support after a reasonable opportunity for further investigation or discovery;
and (4) the complaint otherwise complies with the requirements of Federal Rule of Civil
Procedure 11.
I agree to notify the Clerk's Office in writing of any changes to my mailing address. I
understand that my failure to keep a current address on file with the Clerk's Office may
result in the dismissal of my case.
Each Plaintiff must sign and date the complaint. Attach additional pages if necessary. If seeking to
proceed without prepayment of fees, each plaintiff must also submit an IFP application.

Dated

Plaintiff's Signature

First Name

Middle Initial

Last Name

Street Address
County, City
Telephone Number

State

Zip Code
Email Address (if available)

I have read the Pro Se (Nonprisoner) Consent to Receive Documents Electronically:
□ Yes

□ No

If you do consent to receive documents electronically, submit the completed form with your
complaint. If you do not consent, please do not attach the form.

Page 7

